No. 20-542
IN THE SUPREME COURT OF THE UNITED STATES
______________

REPUBLICAN PARTY OF PENNSYLVANIA,
Petitioner,
v.
KATHY BOOCKVAR, SECRETARY OF THE COMMONWEALTH OF PENNSYLVANIA, ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the Supreme Court Bar and,
as required by Supreme Court Rules 33.1(h) and 33.1(g)(ii), the Brief of the
Pennsylvania Democratic Party Respondents in Opposition contains 8,993 words,
excluding the parts of the petition that are exempted by Supreme Court Rule.
Respectfully submitted,

Arn Jacobsen

